                                                     U.S. Department of Justice


                                                     United States Attorney
                                                     District of Maryland
                                                     Northern Division


Rod J. Rosenstein                                    36 South Charles Street                       410-209-4800
United States Attorney                               Fourth Floor                        TTY/TDD:410-962-4462
                                                     Baltimore, Maryland 21201                     410-209-4885
Vickie E. LeDuc                                                                                FAX 410-962-3091
Public Information Officer                                                               Vickie.LeDuc@usdoj.gov


February 24, 2012
FOR IMMEDIATE RELEASE                               CONTACT AUSA VICKIE E. LEDUC or
www.justice.gov/usao/md                             MARCIA MURPHY at (410) 209-4885

ANNAPOLIS SERIAL FRAUDSTER ADMITS TO OVER $2.6 MILLION IN LOSSES FROM
   REAL ESTATE, BUSINESS LOAN AND SOCIAL SECURITY FRAUD SCHEMES

       Baltimore, Maryland - Winnie Joanne Barefoot, a/k/a Winnie Jo Budzina, a/k/a Winnie
JoAnne Conn, a/k/a Joanne Knopsnyder, a/k/a Olivia JoAnne Morgan, a/k/a Olivia JoAnne Barefoot
Morgan, age 57, of Annapolis, Maryland, pleaded guilty today to bank fraud, arising from her use of
numerous identities to fraudulently obtain real estate and commercial loans, while applying for and
fraudulently receiving social security disability benefits.

        The guilty plea was announced by United States Attorney for the District of Maryland Rod J.
Rosenstein; Special Agent in Charge Richard A. McFeely of the Federal Bureau of Investigation;
Special Agent in Charge Michael McGill of the Social Security Administration - Office of Inspector
General, Philadelphia Field Division; Postal Inspector in Charge Daniel S. Cortez of the U.S. Postal
Inspection Service - Washington Division; and Special Agent in Charge Nicholas DiGiulio, Office of
Investigations, Office of Inspector General of the Department of Health and Human Services.

       From December 2005 to August 2009, Barefoot used the identity of Olivia JoAnne Morgan
and her daughter to engage in fraudulent real estate and loan transactions, including transactions
involving three properties in Annapolis and a business entity she operated.

        In late 2005 and early 2006, Barefoot acquired residential property at 3528 Narragansett
Avenue in Annapolis, in her daughter’s name. She used a forged document in which her daughter
purportedly gave Barefoot power of attorney to apply for financing in the amount of $616,250 to
purchase the property. In the application to the lender, Barefoot falsely represented her daughter’s
assets and ability to pay for the property. The daughter never occupied the property, the property
went into foreclosure and the lender lost $415,000.

       During the summer of 2006, Barefoot also acquired property at 896 Coachway, The Downs,
in Annapolis. She applied for a first and second mortgage loans in the amounts of $780,000 and
$195,000, respectively, using the identity Olivia JoAnne Morgan. She falsely represented her income
and assets to the lender, and that she intended to use this as her primary residence. Although her
daughter and granddaughter briefly occupied this residence in September-October of that year, the
property likewise went into foreclosure and the lender lost $276,000.

        In February 2007, Barefoot used a false social security number to apply to a bank to increase
an existing home equity credit line from $1.3 million to $2.1 million on property at 1588 Eaton Way
in The Downs, Annapolis where she resided from 2002 to 2009 with a man whom she falsely
represented to be her husband. Barefoot falsely represented in the loan application that she and her
“husband” each had monthly income of $25,000 and that her net worth was over $10 million.
Barefoot withdrew all of the credit - about $800,000 - from the increased line of credit. When she
and the purported husband stopped making payments on the loan, the property went into foreclosure
and the bank lost $700,000, plus attorney’s fees and foreclosure costs.

         During the time of these fraudulent schemes, Barefoot sought and fraudulently obtained
supplemental security income from the Social Security Administration (SSA), claiming that she was
disabled beginning in 1997 due to back problems. To obtain the benefits, Barefoot falsely: stated that
she lived at a PO Box address in Crownsville, Maryland; denied ever having been convicted of a
felony, when in fact she was arrested in 1980 and convicted of federal and state felony offenses; and
represented that she had no resources nor received any type of income. Barefoot was ultimately
approved for disability benefits in April 2007, and fraudulently received more than $26,000 in
benefits. In December 2008, Barefoot falsely represented to SSA representatives investigating her
eligibility for benefit payments that: she lived alone at 896 Coachway and did not own the house; and
that “Olivia Joanne Morgan” was her sister who was married to the man who resided at 1588 Eaton
Way. Barefoot eventually returned the $26,000 in social security benefits that she unlawfully
obtained.

        In February 2007 and September 2008, at about the same time that she applied for and
received social security disability benefits, Barefoot obtained two commercial lines of credit loans of
$250,000and $120,000 to finance a hyperbaric oxygen chamber business. On the first application she
used a false social security number, and falsely represented that income and the combined assets for
herself and her purported husband were over $12 million; and that the value of the Eaton Way
property was $4 million and that it was unencumbered. In the second application, she falsely
represented that her monthly income was $30,861; annual sales from the business were $1.1 million;
and that she had not filed bankruptcy in the past 10 years, although in fact she filed bankruptcy in
1999.

        Finally, beginning sometime in January 2008 through at least August 2010, Barefoot operated
another hyperbaric oxygen chamber business, Advanced Hyperbaric Oxygen, LLC. During that time
period, she fraudulently billed for physician hyperbaric oxygen therapy sessions and physician
evaluation and management services when no such physician services were provided. These
fraudulent billings caused a loss to Medicare of $75,814; to CareFirst BlueCross BlueShield of
$433,956; to Aetna of $354,736; and to Humana of $7,924, for a total of at least $872,430.

       The total amount of loss resulting from all of the fraud schemes described above is over
$2,659,430.

        As part of the plea agreement, Barefoot and the government have agreed that if the Court
accepts the plea agreement Barefoot will be sentenced to between 45 and 60 months in prison.
Additionally, Barefoot agrees to the entry of a restitution order for the full amount of the victims’
losses. U.S. District Judge Marvin J. Garbis scheduled sentencing for June 12, 2012, at 10:00 a.m.

        The Maryland Mortgage Fraud Task Force was established to unify the agencies that regulate
and investigate mortgage fraud and promote the early detection, identification, prevention and
prosecution of mortgage fraud schemes. This case, as well as other cases brought by members of the
Task Force, demonstrates the commitment of law enforcement agencies to protect consumers from
fraud and promote the integrity of the credit markets. Information about mortgage fraud prosecutions
is available www.justice.gov/usao/md/Mortgage-Fraud/index.html.
        This law enforcement action is part of President Barack Obama’s Financial Fraud
Enforcement Task Force. President Obama established the interagency Financial Fraud Enforcement
Task Force to wage an aggressive, coordinated and proactive effort to investigate and prosecute
financial crimes. The task force includes representatives from a broad range of federal agencies,
regulatory authorities, inspectors general, and state and local law enforcement who, working together,
bring to bear a powerful array of criminal and civil enforcement resources. The task force is working
to improve efforts across the federal executive branch, and with state and local partners, to investigate
and prosecute significant financial crimes, ensure just and effective punishment for those who
perpetrate financial crimes, combat discrimination in the lending and financial markets, and recover
proceeds for victims of financial crimes.

       United States Attorney Rod J. Rosenstein thanked the FBI, SSA - OIG, U.S. Postal Inspection
Service and HHS-OIG for their work in the investigation. Mr. Rosenstein commended Assistant
United States Attorney P. Michael Cunningham, who is prosecuting the case.
